No. 20-5075
IN THE

Supreme Court of the United States
JORGE HIRAM BÁEZ–MARTÍNEZ
v.
UNITED STATES OF AMERICA

CERTIFICATE OF COMPLIANCE WITH RULE 44.2
Pursuant to Supreme Court Rule 44.2, I hereby certify that the
foregoing Petition for Rehearing is limited to intervening circumstances
and other substantial grounds not previously presented, and is made in
good faith and not for delay. Specifically, the grounds not previously
considered include the impact of the Court’s decision in Borden v. United
States, 141 S. Ct. 1817 (2021) on extreme recklessness offenses, as
evidenced by the Ninth Circuit’s request for post-Borden briefing in
another extreme-recklessness case. See United States v. Burns, No. 1810084, Order (9th Cir. June 15, 2021).
I declare under penalty of perjury the foregoing is true and correct.
Executed on July 15, 2021.
S/FRANCO L. PÉREZ-REDONDO

Assistant Federal Public Defender
Federal Public Defender,
District of Puerto Rico
241 F.D. Roosevelt Ave.
San Juan, PR 00918
(787) 281-4922
Franco_Perez@fd.org
July 15, 2021

